APPLICATION OF INSURANCE OFFSETS 

   ON DISASTER LOANS FOR THE 

     MIDWEST FLOODS OF 2008 




              Report Number 9-13 

            Date Issued: July 6, 2009 





                Prepared by the 

          Office of Inspector General 

      U.S. Small Business Administration 

              U.S. Small Business Administration
              Office Inspector General                                              Memorandum
To: 	     Steven Smith                                                                    Date: July 6, 2009
          Chief, Executive Office of Disaster Strategic
          Planning and Operations

              James E. Rivera, Acting Associate
              Administrator, Office of Disaster Assistance

From: 	   Debra S. Ritt
          Assistant Inspector General for Auditing

Subject: 	 Audit of the Application of Insurance Offsets on Disaster Loans for the Midwest Floods
          of 2008, Report No. 9-13

          This report summarizes the results of our audit of the Small Business
          Administration’s (SBA) Application of Insurance Offsets on Disaster Loans for the
          Midwest Floods of 2008. Under the Stafford Act 1 Federal agencies administering
          disaster benefits must ensure that individuals receiving assistance have not already
          been compensated for their losses by another program, from insurance, or from
          any other source. The audit objective was to determine whether SBA properly
          reduced Midwest flood loan balances to reflect insurance offsets.

          To address the audit objective, we reviewed a statistical sample of 99 2 of 788
          active Midwest Floods disaster loans totaling $8,942,000 for borrowers, who
          either were located in Flood Zone A 3 or who carried flood insurance, to determine
          whether all applicable insurance payments were identified and properly offset
          against each loan’s verified loss. We identified flood insurance payments made to
          the sampled loan recipients based on information reported in the National Flood
          Insurance Program (NFIP) database. We identified hazard insurance payments by
          contacting insurance companies listed in SBA’s Disaster Credit Management
          System electronic loan files. We also interviewed Office of Disaster Assistance
          (ODA) loan officers and case managers at the Disaster Loan Processing and
          1
            P.L. 93-288, as amended, Section 5155.
          2
            We originally sampled 140 loans, but eliminated 41 loans that had been subsequently cancelled, which reduced the
            sample size to 99.
          3
            FEMA has designated Flood Zone A as an area with a high risk of flooding, and therefore, mandatory flood insurance
            requirements apply.
                                                                                    2



Disbursement Center in Fort Worth, Texas to obtain an understanding of the
insurance offset process used prior to loan approval and during loan disbursement.

The audit was performed between August 2008 and April 2009 in accordance with
Government Auditing Standards as prescribed by the Comptroller General of the
United States, and included such tests considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.

We found that ODA did not correctly identify or offset insurance payments on 9 of
the 99 loans we sampled, which resulted in $126,876 in duplicate benefits.
Further, ODA did not take steps to recover some of the duplicate benefits after it
became aware of them. The majority of the errors occurred because loan officers
did not check with insurance companies to determine the amount of insurance that
had been paid prior to each disbursement, as required. Because contacting the
insurance companies before each disbursement may be burdensome for loan
officers, we recommended that ODA revise its SOP to require confirmation of
insurance payments only prior to loan approval and before the final disbursement
occurs.

On June 25, 2009, both offices submitted their formal responses. Management
agreed with our findings, concurred with both recommendations, and has taken
action to implement the OIG recommendations.

BACKGROUND

The Small Business Administration provides direct disaster loans to homeowners,
renters, businesses and nonprofit organizations to help them return to pre-disaster
condition. Section 5155 of the Stafford Act requires Federal agencies providing
disaster assistance to ensure that businesses and individuals do not receive disaster
assistance for losses for which they have already been compensated. An
individual receiving Federal assistance for a major disaster shall be liable to the
United States to the extent that such assistance duplicates benefits to the individual
for the same purpose. Therefore, the borrower is only eligible to receive disaster
loan funds in the amount of the uncompensated loss.

To comply with the Act, Standard Operating Procedure (SOP) 50 30 requires
ODA to determine the borrower’s uncompensated loss, which is the total verified
loss due to the disaster, minus any applicable duplicate benefits. All insurance
payments for the same purpose as the disaster loan are considered a duplicate
benefit.

During the summer of 2008, several Midwestern states suffered approximately
$15 billion in damages due to extensive flooding. These damages resulted in
                                                                                  3



increased flood insurance claims from disaster victims. Although obtained
through commercial insurance companies, all national flood insurance policies are
provided by the NFIP, which is administered by the Federal Emergency
Management Agency (FEMA). Consequently, FEMA maintains a record of all
national flood insurance payments made to flood victims.

RESULTS

ODA Did Not Always Correctly Account for Insurance Recoveries

ODA did not always reduce disaster loans by insurance recoveries, which resulted
in 9 loan recipients receiving $126,876 in duplicate benefits. When we informed
ODA officials or they otherwise became aware of the duplicate benefits, they took
action to offset $94,319 of the payments on 5 of the loans. However, $32,557
must still be offset to arrive at the uncompensated loss for the 4 remaining loans.
For example:

   •	 A duplicate benefit of $5,834 occurred on one loan, even though ODA had
      two opportunities to identify and correct it. Although the borrower
      indicated that an insurance claim was pending at loan approval, the case
      manager did not check on the status of the claim with the insurance
      company prior to issuing the final loan disbursement. Had the case
      manager done so, she would have identified a $5,834 insurance claim
      payment. Additionally, the Agency received written notice of the insurance
      payment 11 days after final loan disbursement, but no action was taken to
      collect the duplicate payment.

   •	 The borrower on another loan informed ODA at loan approval that she had
      received two separate insurance payments – one for $5,982, and one for an
      unknown amount. Neither the loan officer nor the case manager contacted
      the insurance company during loan approval or the disbursement process to
      determine the amount of the second payment. According to the insurance
      company, the second payment was $2,190, which should have been
      deducted from the SBA loan amount.

   •	 ODA was not aware of all flood insurance payments made to a borrower on
      a third loan, which resulted in $42,002 in duplicate benefits. Although the
      flood insurance company provided SBA with both a signed Certification of
      Federal Flood Insurance and a policy declaration notice, confirming that
      ODA had been listed as a mortgagee or lender on the policy, the insurance
      checks issued to the borrower did not list SBA as a co-payee. As a result,
      ODA was unaware of the final insurance payment until the borrower
                                                                                                                   4



            reported it 2 months after the checks were issued. Subsequently, the
            Agency initiated a loan modification to offset the $42,000 1 duplicate
            benefit.

       •	 A $15,000 flood insurance payment on a fourth loan resulted in a
          duplication of benefits. During the loan disbursement process, the
          borrower notified ODA of two insurance payments, which were properly
          offset by the Agency. However, the borrower failed to report a third
          insurance payment of $15,000. The insurance company did not make the
          $15,000 check co-payable to SBA, as requested in the Assignment of
          Insurance Proceeds (AIP) form signed by the borrower. After we informed
          ODA of the additional insurance payment, the Agency initiated a loan
          modification to offset the $15,000 duplicate benefit.

Six of the nine errors occurred because loan officers did not contact insurance
companies before loan approval or when disbursing loan funds. SOP 50 30
requires loan officers to obtain a breakdown of all insurance payments (e.g., the
settlement sheet or adjuster’s proof of loss) from the insurance agent prior to loan
approval. Additionally, the SOP requires that a duplication of benefits check be
completed before each disbursement is made to verify that all grant or recoveries
have been addressed. This check is especially important because information on
insurance claims may not be available before loan approval as the claims are still
in process, and supplemental claims may occur subsequent to loan approval.

Despite the SOP requirements, ODA case managers interviewed told us that they
generally did not verify insurance recovery amounts before approving loan
disbursements as it was time consuming to contact insurance companies prior to
every disbursement, and waiting for a response could unfairly delay loan
disbursements to disaster victims. Further, they believed that the duplication of
benefits check called for by the SOP required a check for only FEMA grants that
may have been awarded to borrowers. Consequently, ODA should revise its SOP
to require confirmation of insurance payments only prior to loan approval and
before the final disbursement.

In the remaining three instances insurance companies ignored SBA’s requests to
include it as a co-payee on insurance payments, even though the three borrowers
had signed AIPs, giving SBA legal claim to any insurance proceeds that
duplicated benefits received from their disaster loans. Although the AIP is
forwarded to the insurance company, it is strictly an agreement between SBA and
the borrower, and does not require the insurance company’s acknowledgement.

1
    There is a $2 discrepancy between the OIG calculation and SBA’s modification. This difference was considered
    immaterial.
                                                                                   5



According to ODA managers we interviewed, the Agency has no legal grounds to
compel the insurance companies to comply with their requests to make SBA the
co-payee on insurance payments because the AIP only legally binds the borrower.

RECOMMENDATIONS

We recommend that the Chief, Executive Office of Disaster Strategic Planning
and Operations:

   1. Revise SOP 50 30 to require confirmation of insurance payments only prior
      to loan approval and before the final disbursement.

   2. Reduce each of the 4 loan balances by the additional offset amounts listed
      in Appendix I to prevent $32,557 in duplicate benefits.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On June 1, 2009 we provided the Executive Office of Disaster Strategic Planning
and Operations the Office of Disaster Assistance the draft report for comment. On
June 25, 2009, both offices submitted their formal responses. These comments are
contained in their entirety in Appendix II. Management agreed with our findings,
concurred with both recommendations, and has taken action to implement the OIG
recommendations.

Recommendation 1

Management Comments

Management agreed with the recommendation to revise SOP 50 30 to require
confirmation of insurance payments only prior to loan approval and before final
disbursement. ODA stated that it will issue a Director’s Memorandum outlining
the SOP change, with the change to be formally incorporated in the SOP in the
next update cycle. ODA indicated that PDC training materials and course content
will also be updated.

OIG Response

The OIG believes that ODA’s revision of the SOP should remedy the deficiencies
noted in the audit report.
                                                                                 6



Recommendation 2

Management Comments

Management also agreed with the recommendation to take action on each of the 4
loans listed in Appendix I to prevent $32,557 in duplicate benefits. ODA
reviewed each of these loans and took action to ensure that the noted duplications
were corrected on the loans.

OIG Response

The OIG believes ODA’s course of action should remedy the deficiencies noted in
the audit report.

We appreciate the courtesies and cooperation of the Office of Associate
Administrator, Disaster Assistance; Disaster Assistance Processing and
Disbursement Center and DCMS Operations Center representatives during this
audit. If you have any questions concerning this report, please call me at (202)
205-[FOIA ex. 2] or Craig P. Hickok, Acting Director, Disaster Assistance Group,
at (817) 684-[FOIA ex. 2].
APPENDIX I. EXCEPTION LIST                                7



                                 Additional
                       Amount
       Loan Number                Offset      Insurance
                        Offset
                                 Required        Type

        [FOIA ex. 2]   $47,002      $0          Flood
        [FOIA ex. 2]   $4,818     $1,288        Flood
        [FOIA ex. 2]   $60,420    $28,079       Both
        [FOIA ex. 2]   $33,170      $0          Flood
        [FOIA ex. 2]   $5,100       $0          Flood
        [FOIA ex. 2]   $4,250       $0         Hazard
        [FOIA ex. 2]   $27,658      $0          Flood
        [FOIA ex. 2]   $5,982     $2,190       Hazard
        [FOIA ex. 2]   $82,069    $1,000        Flood

         TOTAL:                   $32,557
APPENDIX II. AGENCY RESPONSE - ODA   10

